  OPPORTUNITIES TO IMPROVE FAA’S
PROCESS FOR PLACING AND TRAINING
 AIR TRAFFIC CONTROLLERS IN LIGHT
      OF PENDING RETIREMENTS
       Federal Aviation Administration
        Report Number: AV-2004-060
         Date Issued: June 2, 2004
           U.S. Department of
                                                   Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Report on Opportunities To Improve                 Date:    June 2, 2004
           FAA’s Process for Placing and Training Air
           Traffic Controllers in Light of Pending
           Retirements
           AV-2004-060

  From:                                                            Reply to
           Alexis Stefani                                          Attn. of:   JA-10: X60500
           Principal Assistant Inspector General
            for Audit and Evaluations
    To:    Federal Aviation Administrator

           This report presents the results of our audit of the Federal Aviation
           Administration’s (FAA) air traffic controller placement and training process. The
           objectives of our audit were to: (1) determine if FAA has identified future hiring
           requirements for controllers and if FAA’s existing sources for filling these
           vacancies will be sufficient to meet projected requirements; (2) determine if
           FAA’s on-the-job training process for controllers is effective at developing fully
           certified controllers in a timely and cost-effective manner; and (3) evaluate FAA’s
           management of and controls over the Air Traffic Instructional Services contract.

           Our audit focused on the training process for air traffic controllers from the point
           of hiring through the certification process at the facility level. The information
           analyzed was from fiscal years (FYs) 2002 and 2003. The methodology used in
           this audit can be found in Exhibit A.

           We conducted the audit between April 2003 and January 2004. During the audit
           we visited and gathered data from nine en route Centers, six terminal radar
           approach control (TRACON) facilities, and three air traffic control towers. We
           also visited four regional headquarters, the FAA Academy, the Air Traffic Control
           System Command Center, three College Training Initiative schools, and the
           Minneapolis Community & Technical College Air Traffic Control Training
           Program. The locations we visited are listed in Exhibit B.
                                                                                                             2


RESULTS IN BRIEF
Attrition in FAA’s air traffic controller workforce is expected to rise sharply in
upcoming years as controllers hired after the 1981 Professional Air Traffic
Controllers Organization controllers’ strike become eligible for retirement. FAA
currently estimates that nearly 7,100 controllers could leave the Agency over the
next 9 years (FYs 2004-2012). In contrast, FAA has only experienced total
attrition of about 2,100 controllers over the past 8 years (FYs 1996 to 2003).

    Figure 1. FAA Air Traffic Controller Attrition Compared to
                     Retirement Eligibility*

     1600
     1400                                                   Estimated
                            Actual
                                                                                            1,186
     1200                                                                               1,081
     1000                                                                             971
                                                                                864
      800                                                             757 808

      600                                                       537
                                                405 450 437
      400
                253 271 238 246 235 257
      200 204
        0
          96

          97
          98

          99

          00

          01

          02

          03

          04

          05

          06

          07

          08

          09

          10

          11

          12
       19

       19

       19

       19

       20

       20

       20

       20
       20

       20

       20

       20

       20
       20

       20

       20

       20                  Attrition       Controllers Becoming Eligible to Retire
            * Attrition data are as of May 2004. The number of controllers becoming eligible includes
            only those controllers reaching retirement eligibility in that year and does not include prior
            years. Retirement eligibility estimates are as of December 31, 2003.

Whether FAA will need to replace all 7,100 controllers on a one-for-one basis
depends on many factors including future air traffic levels, new technologies, and
long-term FAA initiatives such as redesigning the national airspace. However, it
is clear that as a result of the anticipated increases in attrition, FAA will begin
hiring and training controllers at levels not experienced since the early 1980s.

A substantial challenge for FAA will be to hire and train new controllers within a
tightly constrained operating budget. FAA recently made significant progress in
this area by renegotiating several pay rules with the National Air Traffic
Controllers Association (NATCA) that previously allowed some newly hired
controllers to earn base salaries in excess of $79,000 while in training. The
renegotiated rules now allow FAA to set newly hired controllers’ salaries at levels
                                                                                  3


more commensurate with an entry-level position (from $25,000 to $52,000) and
should help FAA avoid higher costs as it begins hiring and training greater
numbers of new controllers.

An important point worth noting is that new controllers will generally have lower
base salaries than the retiring controllers they replace. Over time, this could help
reduce FAA’s average base salary and, in turn, help reduce FAA’s operating cost
growth. However, if FAA does not place new controllers where and when they
are needed, the potential reductions in base salaries will be offset by lower
productivity from placing too many or too few controllers at individual facilities.

In light of the expected surge in retirements, we found FAA has several
opportunities to better prepare for increased hiring and training requirements.

   • FAA Needs To Develop Attrition Estimates by Location. FAA has
     national estimates of expected attrition within the controller workforce that
     are based on attrition rates for the previous 3 years. According to FAA
     managers, they used data from the previous 3 years because current data
     more accurately reflect potential future retirement trends. FAA plans to
     reassess its attrition estimates each year as it accumulates further data on
     retirement trends. We considered this methodology to provide a reasonable
     estimate of future retirements at the national level. However, those
     estimates do not take into account where vacancies will occur.

      While most locations we visited had estimates of attrition over the next
      2 years, we found different information was used to develop those
      estimates. For example, one facility only projected mandatory retirements,
      another projected attrition for transfers but not retirements, and another
      provided estimates on all types of attrition (i.e., retirements, transfers,
      hardships, resignations, and removals). Because of these differences in the
      way estimates were made, wide variances in projected attrition rates
      occurred from facility to facility. To illustrate, the Chicago Center
      projected 115 controllers would leave in the next 2 years because all
      attrition was considered in their estimates, whereas the Jacksonville Center
      projected 10 retirements because only mandatory retirements were included
      in their estimate.

      The need for consistent Agency-wide data to uniformly identify where and
      when retirements will occur underscores the need for FAA to have a fully
      functional cost accounting system with a labor distribution system. FAA
      plans to implement a labor distribution system called CRU-X for the Air
      Traffic Organization. CRU-X is designed to capture data such as the
      mandatory retirement date and retirement eligibility date for all controllers
                                                                              4


   by location. This information could be used at the national level to
   accurately identify when and where vacancies will occur. CRU-X could
   also provide information on the time controllers spend controlling aircraft
   and conducting other duties, which could assist managers in utilizing their
   workforce more productively.

   However, CRU-X’s deployment has been on hold for almost 2 years pending
   FAA and NATCA negotiations over its implementation. FAA and NATCA
   need to complete actions to resolve their differences regarding CRU-X and
   implement the system as quickly as possible so the Agency and union have
   objective data to determine how many controllers are needed and where. In
   the interim, FAA needs to develop policies, procedures, and systems to
   uniformly estimate controller attrition by location and adjust national
   estimates as needed.

• FAA Needs To Assess Newly Hired Controllers’ Abilities Before They Are
  Placed. FAA air traffic facilities are categorized into multiple levels
  (5-12)—the higher the level, the greater the demand on a controller’s
  judgment, skill, and decision-making ability. However, FAA places new
  controllers without assessing if they have the knowledge, skills, and
  abilities to certify at their assigned facility. Currently, FAA places newly
  hired controllers based only on where and when vacancies occur, and many
  of those vacancies occur at some of FAA’s busiest and most complex
  facilities.

   FAA has developed the Air Traffic Selection and Training (AT-SAT) test
   to assess an applicant’s potential to be a successful air traffic controller
   before the controller is hired. FAA started administering the AT-SAT test
   to all applicants who are new to the air traffic controller profession in
   January 2004. However, FAA currently has no plans to use these scores in
   determining the facility level at which a newly hired controller should be
   placed.

   Given the expected increases in attrition, FAA needs to develop a process
   for identifying a new controller’s potential to certify at a facility and use
   this information when determining where the new controller should be
   placed. In developing a process, FAA should consider validating whether
   AT-SAT could be used for that purpose or identify other factors, such as
   performance at the FAA Academy or previous experience, that could be an
   indicator of a controller’s skills and abilities. A better selection and
   screening process could help in reducing the number of training failures
   and thereby avoid the time and costs FAA incurs in training new controllers
   to replace those who are unable to certify.
                                                                              5



• FAA Needs To Determine Ways to Reduce the Time and Costs Associated
  with On-The-Job Training While Achieving Results. On-the-job Training
  (OJT) is the longest portion of new controllers’ training. At the locations
  we visited, the overall time required for newly hired controllers to become
  certified averaged 3.1 years, but in some cases it took as long as 7 years.
  However, we found that FAA provides minimal oversight of this portion of
  training at the national level. For example, FAA does not have national
  statistics on key performance measurements for OJT such as the time it
  takes controllers to certify, delays in the OJT process, where and when
  training failures occur, and the total cost to provide OJT.

   Because FAA could not provide national statistics on the OJT process, we
   collected various data at the 17 facilities we visited. The compiled data
   from the 17 facilities showed wide variances in the OJT statistics that could
   be key indicators of whether the process is being managed in a timely and
   cost-effective manner. (Table 4 on page 16 contains the statistics we
   compiled at all 17 locations). However, since FAA does not capture any
   national statistics, these variances are not investigated to identify reasons
   for the differences or to determine if actions are needed to improve the OJT
   process. For example:

   - During FYs 2002 and 2003, New York Center had 15 training failures,
     while the Washington Center had only 4 training failures. At the time
     we visited, both these facilities had around 70 trainees.

   - At the New York Center, trainees took an average of 3.8 years to
     certify. In comparison, at the Minneapolis Center, trainees took an
     average of 1.3 years.

   - New controllers at the New York and Cleveland Centers trained on live
     traffic about the same number of hours (an average of 696 and 677
     hours a year, respectively). However, we found that trainees at the New
     York Center took, on average, more than a year longer to certify (3.8
     years compared to 2.7 years), even though both Centers provided the
     same average amount of time training on live traffic.

   We were unable to determine the specific reasons for the variances among
   the data collected. However, we found many factors affect OJT, including
   the hiring source, level of the facility, local training policies, and
   operational needs of the facility. For example:

   - Hiring Source. The Minneapolis Center primarily obtains replacements
     for controllers from other FAA facilities, while the New York Center’s
                                                                                                                            6


                  primary sources of new controllers are former Department of Defense
                  controllers and new graduates from College Training Initiative schools.1

             - Level of Facility. The facility level may also affect the time it takes to
               certify. For example, the New York Center is a level 12 facility,
               whereas the Minneapolis Center is a level 11. At the New York Center,
               trainees took an average of 3.8 years to certify compared to an average
               of 1.3 years to certify at the Minneapolis Center.

             - Local Policies. We also found that facility policies may affect training.
               For instance, OJT may be delayed because of facility policies requiring
               a certain number of students in a training class. At the Oakland Center,
               a trainee completed one phase of OJT but had to wait 6 months before
               starting the next phase because the facility requires a minimum of four
               students to start a class. In contrast, the Cleveland Center had no gaps
               in training because at that facility, classes are started even if only one
               new controller is ready for the next phase of training.

             - Operational Needs. Once new controllers have certified on a sector,
               they can independently work that sector for the facility. However, new
               controllers cannot become fully certified until they certify on all sectors
               within their assigned areas (usually between five and seven sectors).
               Some facility managers stated that this extends the length of controller
               training because time working operationally does not count toward OJT.
               At hard-to-staff facilities, new controllers certified on a particular sector
               may be used operationally on that sector repeatedly to alleviate short-
               term staffing shortages. This may be one reason why it takes longer to
               train at the New York Center than the Cleveland Center, even though
               both provide almost the same number of hours training on live traffic.

             The wide variances in data we reviewed and the multiple factors affecting
             the OJT process underscore the need for FAA to evaluate, manage, and
             improve the overall OJT process. Unless FAA accumulates site-specific
             statistics on a national level, FAA has no means to assess the overall OJT
             process, determine whether training resources can be more efficiently and
             effectively used, and identify the most efficient and best practices. Those
             actions will be key to reducing the time and costs required for new
             controllers to become fully certified. To prepare for hiring and training
             new controllers over the next 8 years, it is imperative for FAA to determine
             better ways for reducing the time and costs associated with the OJT process
             while still achieving results. FAA needs to explore ways to reduce the time

1
    At the 17 facilities we visited, statistics showed that transfer controllers usually certify quicker at a new facility than
    external new hires.
                                                                                   7


       and costs of providing OJT training, such as an improved placement
       process, better prepared candidates through increased educational
       requirements, and/or enhanced simulation training at large facilities.

       To do this, however, FAA first needs the basic data to effectively manage
       the program. Accordingly, FAA will need to compile national statistics and
       establish a baseline to better manage the OJT process and include these in
       developing a tracking system for training.

       FAA will also need to improve controls over its Air Traffic Instructional
       Services contract.     Although this contract supports OJT at over
       50 locations, we found that FAA requires no documentation to support
       hours billed by contract employees. We also found that the contract will
       cost FAA $122 million over a 5-year period (if all of the contract options
       are exercised); however, FAA has not had an independent incurred cost
       audit of the contract as required by FAA’s Acquisition Management
       System. FAA has recently taken action to address this issue and has
       included the Air Traffic Instructional Services contract in a list of 183
       requested audits currently being coordinated with the Defense Contract
       Audit Agency.


Recommendations
Our recommendations focus on improving FAA policies and procedures to help
ensure that newly hired controllers go through the best and most cost-effective
selection and training process.

To ensure that FAA will have sufficient numbers of controllers available when and
where they are needed, we are recommending FAA:

• Establish a system to uniformly estimate controller attrition by location and
  adjust national attrition and hiring estimates as needed, and
• Develop an assessment process for identifying a new controller’s potential to
  certify at a certain facility level and use this information in placing newly hired
  controllers.

To prepare for hiring and training new controllers over the next 8 years, FAA
needs to determine better ways for reducing the time and costs associated with the
OJT process while still achieving results. To do this, however, FAA first needs
the basic data to effectively manage the program and then needs to explore ways
to reduce the time and costs of providing OJT, such as enhanced simulation
training at large facilities. Accordingly, we are recommending FAA:
                                                                               8


• Compile national statistics and establish a baseline to better manage the time
  and costs associated with the controller OJT process and include these in
  developing a tracking system for training.

In addition, to ensure that the hours and services billed by the contractor for
providing classroom and simulation portions of OJT were worked and training
services were provided, we recommend FAA:

• Require the Air Traffic Instructional Services contractor to maintain and
  provide supporting documentation for hours worked and services provided.


Management Comments and OIG Response
A draft of this report was provided to FAA on April 23, 2004. On June 1, 2004,
FAA provided written comments and concurred with all the findings and
recommendations. The actions planned are responsive to our recommendations
and when fully implemented should result in a better placement and training
process for new air traffic controllers. However, FAA needs to provide target
dates for completing actions to establish a system that will uniformly estimate
controller attrition by location and to develop an assessment process for placing
newly hired controllers. The complete text of FAA’s comments is attached as an
appendix to this report.
                                                                                      9


BACKGROUND

Attrition in FAA’s air traffic controller workforce is expected to rise sharply in
upcoming years as controllers hired after the 1981 Professional Air Traffic
Controllers Organization controllers’ strike become eligible for retirement. FAA
currently estimates that nearly 7,100 controllers could leave the Agency over the
next 9 years (FYs 2004-2012). In contrast, FAA has only experienced total
attrition of about 2,100 controllers over the past 8 years (FYs 1996-2003).

FAA hires new controllers from multiple sources. These include controllers from
the Department of Defense (DOD), controllers from FAA’s Contract Tower
Program, graduates of College Training Initiative (CTI) schools, graduates of the
Minneapolis Community & Technical College Air Traffic Control Training
Program (MARC), controller reinstatements, and off-the-street applicants. Once
hired, new controllers undergo an extensive training process. Training to become
a certified professional controller (CPC) usually consists of training at both the
FAA Academy and OJT at their assigned facility. As shown in Table 1, almost
half of all new hires attend the Academy, regardless of their prior experience as a
controller.

    Table 1. Number of New Hires Attending the FAA Academy

                                                     Number
                                                    Attending
                                      Number of        FAA
                             FY       New Hires     Academy
                            2000        421            205
                            2001        359            156
                            2002        581            282
                            2003        753            355

The time it takes to train new hires at the FAA Academy varies but can take up to
16 weeks depending on the hiring source. Once newly hired controllers complete
Academy training, they are sent to a facility to begin the OJT process. In general,
during OJT trainees receive classroom and simulation training at their assigned
facility (primarily through contract instructors) before training on live traffic with
a certified controller who is designated as an on-the-job training instructor (OJTI).
The OJTIs teach the trainees through a combination of instruction, demonstration,
and practical application. Once trainees are assigned to an air traffic control
facility, they are considered “developmental” controllers, or developmentals, until
they have certified as an air traffic controller (proven they can control air traffic in
all sectors of their assigned area). Transferring CPCs are considered CPCs-in-
training until they have certified on the air space of the new facility.
                                                                                                                     10


FINDING AND RECOMMENDATIONS
We found that FAA has national estimates of expected attrition within the
controller workforce but those estimates do not take into account where vacancies
will occur. We also found that FAA does not have a screening process for
determining if newly hired controllers have the knowledge, skills, and abilities
necessary to certify at the level of facility in which they are placed. Additionally,
FAA needs to improve its overall oversight and management of the OJT process.
Even though OJT is the longest portion of controller training, we found FAA does
not have national statistics that are critical to effectively manage the process, such
as the time it takes a controller to certify, data on training delays and failures, or
costs associated with OJT. At the 17 facilities we visited, we found wide
variances in key factors that could be used to determine whether the process is
being managed in a timely and cost-effective manner. Finally, FAA needs to
improve controls over the Air Traffic Instructional Services contract to ensure that
hours and services billed were valid, allowable, and allocable.

FAA Has National Estimates of Expected Attrition Within the
Controller Workforce, but Those Figures Do Not Take Into Account
Where Vacancies Will Occur

FAA estimates controller attrition resulting from retirements based on a
controller’s years of service and age. In determining eligibility for retirement
purposes, FAA has identified controllers who will reach initial eligibility under
special retirement provisions (age 50 with 20 years of active service as a controller
or any age with 25 years of active service), as well as those controllers who are
subject to mandatory retirement at age 56 (Table 2).1

                    Table 2. Retirement Eligibility Requirements
                                   for Controllers
                     Type of           Controller                        Years
                    Retirement           Age                           of Service
                     Special              50                               20
                     Special            Any Age                            25
                    Mandatory             56                               20


FAA estimates that 25.5 percent of controllers eligible to retire will leave in the
first year of eligibility, 8.5 percent in the second year, and 5.5 percent in the third
1
    Some controllers appointed by the Department of Transportation before May 16, 1972, and controllers appointed by
    DOD before September 12, 1980, are exempt from mandatory retirement at age 56. In addition, some controllers
    who have not reached retirement eligibility by age 56 may continue as air traffic controllers until they become
    eligible for retirement. At the direction of Congress, FAA drafted a rule establishing requirements for requesting an
    exemption to the mandatory age 56 retirement rule up to age 61. As of May 2004, FAA had not issued a final rule
    regarding this exception policy.
                                                                                          11


year. FAA identified these percentages by reviewing retirement data from the
previous 3 years. According to FAA managers, they used data from the previous
3 years because current data more accurately reflect potential future retirement
trends. FAA plans to reassess its attrition estimates each year as it accumulates
further data on retirement trends. We considered this methodology to provide a
reasonable estimate of future retirements at the national level. However, FAA’s
national estimates for controller attrition do not identify where vacancies will
occur. As shown in Table 3, most facilities we visited had estimates for attrition
over the next 2 years. However, the 17 facilities included different information in
developing their estimates.

   Table 3. Facility Attrition Projections at 17 Locations Visited
                         (FYs 2004 and 2005)

                             Projected
              Facility       Attrition               Data Used for Projections
       Atlanta Center              87    All controllers eligible to retire
                                         All controllers eligible to retire and all other
                                         categories of attrition (i.e., transfers, worker’s
       Chicago Center            115     compensation)
       Cleveland Center           49     Detailed information on all categories of attrition
       Jacksonville Center        10     Mandatory retirements
       Los Angeles Center         32     Mandatory retirements and projected transfers
       Minneapolis Center         27     Estimated attrition based on previous years
       New York Center            29     Detailed information on all categories of attrition
       Oakland Center             41     All controllers eligible to retire
       Washington Center          65     Estimated attrition based on previous years
       Atlanta TRACON              8     Retirements and estimated training failures
       Chicago TRACON             34     Estimated attrition based on previous years
       Minneapolis TRACON          4     Mandatory retirements
       New York TRACON            16     Mandatory retirements and projected transfers
       Southern California               Confirmed retirements for FY 2004 and eligible
       TRACON                    106     retirements through FY 2005
       LaGuardia Tower             8     Estimated attrition based on previous years
                                         FY 2004 projected losses, no estimates are
       Los Angeles Tower           5     available for FY 2005
       Minneapolis Tower           4     Mandatory retirements


One facility projected only mandatory retirements, another projected attrition for
transfers but not retirements, and another provided estimates on all types of
attrition (i.e., retirements, transfers, hardships, resignations, and removals).
Because of these differences in the way estimates were made, wide variances in
projected attrition rates occurred from facility to facility. For example, the
Chicago Center projected 115 controllers would retire in the next 2 years because
                                                                                              12


all attrition was considered in the estimates whereas the Jacksonville Center
projected only 10 retirements because only mandatory retirements were included
in their estimates.

The need for consistent Agency-wide data to uniformly identify where and when
retirements will occur underscores the need for FAA to have a fully functional
cost accounting system with a labor distribution system. FAA is planning on
implementing a labor distribution system called CRU-X for the Air Traffic
Organization. CRU-X is designed to capture data such as the mandatory
retirement date and retirement eligibility date for all controllers by location. This
information could be used at the national level to accurately identify when and
where vacancies will occur. CRU-X could also provide information on the time
controllers spend controlling aircraft and conducting other duties that could assist
managers in utilizing their workforce more productively. However, CRU-X has
not been deployed because in September 2002 FAA entered into an agreement
with the controllers’ union that eliminated many of the system’s functions.

Specifically, the agreement eliminated (1) requirements for employees to sign in
and out of the system when arriving or leaving work, and (2) tracking time spent
by employees performing collateral duties. In our June 3, 2003 assessment of
FAA’s cost accounting system, we cited the lack of those fundamental procedures
as a serious internal control weakness. In February 2004, FAA provided NATCA
with substantive changes planned for the system and in March 2004 opened formal
discussions with the union. However, FAA and NATCA have not reached an
agreement on implementation of the system. In the interim, FAA needs to develop
policies, procedures, and systems to uniformly estimate controller attrition by
location and adjust national estimates accordingly.

With Proper Planning, FAA Should Have Adequate Sources for Hiring
New Controllers
FAA hires new controllers from multiple sources. These include controllers from
the Department of Defense, controllers from FAA’s Contract Tower Program,
graduates of the CTI schools, graduates of the MARC program, controller
reinstatements, and off-the-street applicants. FAA should have sufficient sources
of new controllers as attrition increases if FAA identifies in advance how
vacancies will be filled and coordinates with its various hiring sources. For
example, FAA can increase its pool of candidates by requesting additional
graduates from the MARC and CTI schools or by additional off-the-street hiring.
Representatives from the MARC school indicated they are capable of increasing
the number of graduates produced each year from 96 students to 150 students
depending on funding provided by Congress.2

2
    The MARC school normally receives some funding from Congress to support its operations.
                                                                                 13



Likewise, representatives from CTI schools said they have the capability to
increase their number of graduates. However, schools are reluctant to increase
class sizes until FAA assures them that their graduates will be hired. Usually,
candidates from the MARC and CTI schools must be under the age of 31 to be
hired by FAA.

FAA can also increase the number of recruits through off-the-street hiring. In the
past, FAA used off-the-street hiring at facilities that had difficulty in hiring and
retaining controllers. These facilities are usually located in major metropolitan
areas (e.g., New York) where the cost of living is much higher than other areas
and hiring locally promotes retention. FAA has only limited recent experience
using this source; however, if needed, FAA has the flexibility to significantly
increase its hiring pool by hiring off-the-street candidates.

Once FAA hires new controllers, their salaries are determined by pay rules
negotiated as part of the 1998 collective bargaining agreement between FAA and
NATCA. The new Air Traffic Control (ATC) pay system eliminated the Federal
pay scales and reclassified each air traffic facility into one of eight ATC levels
with corresponding pay bands. Under this pay system, controllers’ salaries are
determined by the rating of the facility. The higher the rating, the higher the
controller’s salary and the greater the demand on the controller’s judgment, skill,
and decision-making ability.

Under flexibilities of personnel reform, FAA and NATCA developed a series of
pay rules for the air traffic pay system. We found as a result of those rules some
newly hired controllers were brought on board at salaries nearly equal to the base
salary of CPCs. In December 2003, FAA successfully negotiated changes to these
pay rules with NATCA as part of an extension to the existing collective bargaining
agreement.

The renegotiated rules should allow FAA to set newly hired controllers’ salaries at
levels that are commensurate with an entry-level position and should result in
FAA avoiding higher costs to train new controllers in the future. However, it is
important to note that these renegotiated rules will only apply to future new hires.
Consequently, FAA continues to incur increased training costs because some
recently hired controllers were brought on board at much higher salaries (as much
as $79,000), which they will continue to earn during training.
                                                                                                                      14


Newly Hired Controllers Are Placed Without Assessing if They Can
Complete the OJT Process and Certify at Their Assigned Facility
Although FAA air traffic facilities are categorized into multiple levels, FAA
places new controllers without assessing if they have the knowledge, skills, and
abilities to certify at their assigned facility. Currently, FAA places newly hired
controllers based only on where and when vacancies occur, and many of those
vacancies occur at some of FAA’s busiest and most complex facilities.

At the 17 facilities we visited, we found multiple instances where a developmental
controller spent years in training without being able to certify, only to be
transferred to a less complex area or a lower-level facility where OJT started
again. For example, after training for almost 7 years at the Chicago Center and
not certifying, a developmental was moved to another area3 within the same
facility where the OJT process started again.

In the 1980s, the FAA Academy was primarily used as a screening program to
identify candidates who did not have the necessary skills to be successful as a
controller. As a result, approximately 50 percent of new hires failed to pass initial
training at the Academy. In the 1990s, the Academy transitioned from screening
new hires to teaching skill sets and currently passes around 95 percent of students.

This change in direction from a screening process to a training program was the
basis for FAA developing the AT-SAT test. The AT-SAT test is designed to
assess an applicant’s potential to be a successful air traffic controller before hiring.
FAA started administering the AT-SAT test to all applicants who are new to the
air traffic controller profession in January 2004; however, FAA has no plans to use
these scores in determining the facility level at which a newly hired controller
should be placed.

Given the expected increases in attrition, FAA needs to develop a process for
identifying a developmental’s potential to certify at a facility and use this
information when determining where a new controller should be placed. In
developing a process, FAA should consider validating whether AT-SAT could be
used for that purpose or identify other factors such as performance at the FAA
Academy or previous experience that could be an indicator of a controller’s skills
and abilities. A better selection and screening process could help in reducing the
number of training failures and thereby avoid the time and costs FAA incurs in
training new controllers to replace those that are unable to certify.



3
    FAA en route center’s air space is divided into areas or segments of airspace that are further divided into sectors or
    smaller segments of airspace. A group of sectors make up an area. Centers have responsibility for several areas.
                                                                                 15


FAA Needs To Keep National Statistics for Evaluating, Managing,
and Improving the OJT Process as Hiring Increases
We found that the OJT process for controllers is very decentralized, and FAA
provides minimal oversight of this portion of training at the national level. For
example, even though OJT is the longest portion of the controller training process,
FAA does not have national statistics on key performance measurements such as:


               •   The time it takes controllers to certify,
               •   Delays in the OJT process,
               •   Where and when training failures occur, and
               •   The total cost to provide OJT.

National statistics on the training process were kept after the 1981 strike, but FAA
stopped collecting the data in the mid-1990s as hiring declined significantly. At
the facility level, FAA has a program called TRAX that captures some training
data, such as course information and training hours. However, these data are not
compiled nationally, and the system has limited reporting capabilities. As a result
of this lack of data, we could not determine if FAA’s Agency-wide OJT process
for controllers is effective at developing CPCs in a timely and cost-effective
manner.

Because FAA could not provide national statistics on the OJT process, we
collected data at the 17 facilities we visited so we could assess the OJT process.
We requested information on training failures, length of OJT, actual hours training
with an OJTI, number of certified air traffic controllers, number of
developmentals, and actual and projected attrition. However, to obtain the data,
some facilities had to manually extract the information from individual training
files as the data were not tracked on a regular basis.

The compiled data from the 17 facilities we visited showed wide variances in the
OJT statistics that could be key indicators of whether the process is being
managed in a timely and cost-effective manner (see Table 4).
                                                                                                      16


            Table 4. Training Statistics Provided by 17 Facilities
                            (FYs 2002 and 2003)

                                                  Number of
                                                    Newly          Average Years         Average Hours
                          Facility   Training      Certified       to Certify as a       Training on Live
        Facility           Level     Failures     Controllers        Controller*               Traffic*
Atlanta Center              12           11           36                 2.1                     666
Chicago Center              12            5           28                 3.5                     905
Cleveland Center            12            2           26                 2.7                     677
Jacksonville Center         11            1           28                 1.5                     402
Los Angeles Center          11           20           26                 2.5                     847
Minneapolis Center          11            1           22                 1.3                     434
New York Center             12           15           31                 3.8                     696
Oakland Center              11            6           14                 3.4                     655
Washington Center           12            4           12                 2.0                     492
                                                                      Excluded                Excluded
                                                                     because of             because of
                                                                       recent                   recent
Atlanta TRACON              12           18             3           consolidation          consolidation
Chicago TRACON              12           14             3                1.8                     462
Minneapolis TRACON          11            1            12                1.7                     721
                                                                                         Average data not
                                                                                          available. Data
                                                                                            available by
New York TRACON               12            35           16                 1.7              individual.
Southern California
TRACON                        12              3           8                 1.0                  299
LaGuardia Tower               10              0           2                 1.8                  291
Los Angeles Tower             12              1           8                 1.3                  425
Minneapolis Tower             11              1           5                  .6                  316
  *Statistics are for CPCs that certified during FYs 2002 and 2003 and do   not include data from training
   failures or developmentals who have not certified.


  We found that the number of training failures, average time to certify, and average
  hours training on live traffic varied significantly at the 17 facilities. However,
  since FAA does not capture any national statistics, these variances are not
  investigated to identify reasons for the differences or to determine if actions are
  needed to improve the OJT process. For example,

      • Training Failures. During FYs 2002 and 2003, New York Center had
        15 training failures while the Washington Center had only 4 training
        failures. At the time we visited, both these facilities had around
        70 developmentals. We also found that the number of training failures may
        be understated. At some facilities visited, we found developmentals who
        could not certify in one area were moved to another area where training
        started again. However, those individuals were not counted as training
                                                                                   17


      failures. FAA officials at those facilities told us that they only consider it a
      training failure when a developmental is moved to another facility.

   • Time to Certify. At the New York Center, developmentals took an average
     of 3.8 years to certify. In comparison, at the Minneapolis Center,
     developmentals took an average of 1.3 years.

   • Hours Training on Live Traffic. Developmentals at the New York and
     Cleveland Centers (both level 12 facilities) trained on live traffic about the
     same number of hours (an average of 696 and 677 hours a year,
     respectively). However, we found that developmentals at the New York
     Center took, on average, more than a year longer to certify (3.8 years
     compared to 2.7 years), even though both Centers are level 12 facilities,
     and both provide the same average amount of time training on live traffic.

We were unable to determine the specific reasons for the variances among the data
collected. However, we found many factors affect OJT, including the hiring
source, level of the facility, local training policies, and operational needs of the
facility, as discussed below.

   • Hiring Source. The Minneapolis Center primarily obtains replacements for
     controllers from other FAA facilities, while the New York Center’s primary
     sources of new controllers are former DOD controllers and CTI and MARC
     graduates. At the 17 facilities we visited, statistics showed that transfer
     controllers usually certify quicker at a new facility than external new hires
     (see table 5).

     Table 5. Training Statistics by Source for All 17 Facilities
                       (FYs 2002 and 2003)
                                                           Average
                                                 Number   Number of
                                                 of New    Years to
               Source                             CPCs      Certify
               Reinstatements                      22        3.9
               Minneapolis Community &
               Technical College Air Traffic
               Control Training Program
               graduates                           46        3.3
               Department of Defense
               controllers                         35         3
               Collegiate Training Initiative
               graduates/FAA Rosters               34        2.5
               Transfers from other facilities    140        1.6
                                                                               18


   • Level of Facility. We also found that the facility level may affect the time
     it takes to certify. For example, the New York Center is a level 12 facility,
     whereas the Minneapolis Center is a level 11. At the New York Center,
     developmentals took an average of 3.8 years to certify compared to an
     average of 1.3 years to certify at the Minneapolis Center.

   • Local Policies. Facility policies may also affect training. For instance, we
     found cases where developmental training is disrupted by prime time leave
     periods and operational needs of the facility. Prime time leave periods are
     negotiated with the union at the facility level so that bargaining unit
     employees can take up to 2 consecutive weeks of leave. At the New York
     Center, for instance, classroom training stops completely during the
     summer, and contract instructors are furloughed. In contrast, at other
     facilities we visited, OJT was a continual process and was not stopped
     during prime time leave periods.

      We also found that OJT may be delayed because of facility policies
      requiring a certain number of students in a training class. For example, a
      developmental at the Oakland Center completed one phase of OJT and had
      to wait 6 months before starting the next phase. According to the facility
      training manager, the delay occurred because a minimum of four students is
      required before the next phase of classes could begin. In contrast, the
      Cleveland Center has no gaps in training. The training manager stated that
      a class will be started even if only one developmental is ready for the next
      phase of training.

   • Operational Needs. Once developmentals have certified on a sector, they
     can independently work that sector for the facility.                However,
     developmentals do not become CPCs until they certify on all sectors within
     their assigned areas, usually between five and seven sectors. Some facility
     managers stated that this extends the length of controller training because
     time expended working operationally does not count toward OJT. At
     hard-to-staff facilities, developmentals certified on a particular sector may
     be used operationally on that sector repeatedly to alleviate short-term
     staffing shortages. This may be one reason why it takes longer to train at
     the New York Center than the Cleveland Center, even though both provide
     almost the same number of hours training on live traffic.

The wide variances in data we reviewed and the multiple factors affecting the OJT
process underscore the need for FAA to evaluate, manage, and improve the overall
OJT process. Unless FAA accumulates site-specific statistics on a national level,
FAA has no means to assess the overall OJT process, determine whether training
resources can be more efficiently and effectively used, and identify the most
                                                                                   19


efficient and best practices. To prepare for hiring and training new controllers
over the next 8 years, FAA will need to compile national statistics and establish a
baseline to better manage the OJT process and include these in developing a
tracking system for training.

Better Controls Are Needed for the Air Traffic Instructional Services
Contract To Ensure That Hours and Services Billed Are Valid
In January 2001, FAA signed the Air Traffic Instructional Services (ATIS)
contract with Washington Consulting Group, which provides classroom training,
administrative support, and training-related services at 53 locations. (Exhibit C
lists the locations.)

The contract is an indefinite delivery/indefinite quantity contract or a contract that
allows FAA to procure an undetermined amount of services at a set price up to a
specific dollar ceiling. If FAA chooses to exercise all of the contract options, the
contract will cost $122 million over a 5-year period. As of December 2003, FAA
has expended approximately $51.8 million.

According to air traffic control managers, the ATIS contract is an effective means
of providing classroom and simulation training to developmentals. This is because
contract trainers are usually experienced, retired air traffic controllers from that
location. In addition, using contract trainers to provide the classroom portion of
OJT frees controllers to provide OJT on live air traffic. FAA managers support
the use of the contract, but we found that FAA could improve its financial
administration of the contract.

The contractor bills FAA (at a negotiated rate) based on the number of hours
contract employees perform services at the 53 facilities. The contractor’s site
supervisor submits a monthly activity report of hours worked to the FAA facility
training manager for certification. The report contains a rollup of hours worked by
category (e.g., trainer, administrative) but does not identify classes taught by the
contract trainers, dates and times the classes were taught, or attendees. Once
certified by the FAA training manager, this activity report is forwarded to the
contracting officer’s technical representative in Oklahoma City for verification
and payment. This billing process relies on the local FAA training manager to
provide effective oversight that the hours billed by the contractor were worked and
the training services were provided.

However, FAA requires no documentation to support the hours billed by the
contract employees. In most cases, we found FAA training managers obtained
virtually no documentation about when classes were provided, who provided the
instruction, or what services were performed. For example:
                                                                                   20


   • At the Los Angeles Center, one manager stated that schedules of contract
     training classes were routinely destroyed.

   • At the Washington Center, we found that schedules were not retained
     because, according to the training manager, they were never required to be
     maintained.

The lack of documentation leaves FAA vulnerable to pay for services that may not
have been provided as billed. For example, a training manager at one location had
certified hours on the monthly activity report even though the total hours billed
had been erroneously doubled. Fortunately, this report was corrected when
reviewed by the contracting officer’s technical representative in Oklahoma City
before payment.

Because this contract is for services provided, it is not unreasonable, in our
opinion, to require contract employees to submit documentation to support the
hours billed and services provided. We also found that FAA has not had an
independent incurred cost audit of the contract even though FAA’s Acquisition
Management System requires FAA to obtain annual audits of any cost
reimbursement contract that has a total value exceeding $100 million. FAA has
recently taken action to address this issue and has included the ATIS contract in a
list of 183 requested audits currently being coordinated with the Defense Contract
Audit Agency.


RECOMMENDATIONS
We recommend that FAA:

   1. Establish a system to uniformly estimate controller attrition by location and
      adjust national attrition and hiring estimates accordingly.

   2. Develop an assessment process for identifying a new controller’s potential
      to certify at a certain facility level and use this information in placing newly
      hired controllers.

   3. Compile national statistics and establish a baseline to better manage the
      time and costs associated with the controller OJT process and include these
      in developing a tracking system for training.

   4. Require the ATIS contractor to maintain and provide supporting
      documentation for hours worked and services provided.
                                                                                    21


MANAGEMENT COMMENTS AND OIG RESPONSE
A draft of this report was provided to FAA on April 23, 2004. On June 1, 2004,
FAA provided written comments and concurred with all the findings and
recommendations.

Recommendation 1. Concur. FAA is examining ways to refine its current
process for estimating controller attrition to provide attrition estimates by location.
In case a refinement of the current process is not feasible or sufficiently accurate,
FAA is also researching other alternatives.

Recommendation 2. Concur. FAA is evaluating data gathered from AT-SAT
scores to determine if this information can be used to improve the controller
placement process to allow the Agency to better match high-aptitude scores with
high-level facilities.

Recommendation 3. Concur. FAA is coordinating a study to establish national
baseline statistics and is concurrently developing an ongoing tracking system that
will be implemented at the completion of the national baseline study. The
estimated completion date for the national baseline study is December 2004.

Recommendation 4. Concur. FAA plans to amend FAA Order 3120.4J, Air
Traffic Technical Training, to require FAA facilities to maintain a written log
containing at a minimum: (1) start and end dates for classes conducted, (2) type of
class, (3) contractor and FAA instructor names, and (4) number of students. The
amendment to the order will be completed by December 2004.

The complete text of FAA’s comments is attached as an appendix to this report.

The actions taken and planned by FAA are reasonable and address the intent of
our recommendations. However, FAA needs to provide target dates for
completing recommendations 1 and 2.

ACTION REQUIRED
In accordance with Department of Transportation Order 8000.1C, we request that
within 30 days you provide milestones for completing intended actions for
recommendations 1 and 2.

We appreciate the courtesies and cooperation of FAA representatives during this
audit. If you have questions concerning this report, please call me at
(202) 366-1992 or David A. Dobbs, Assistant Inspector General for Aviation
Audits, at (202) 366-0500.

                                          #
                                                                                  22



EXHIBIT A. AUDIT METHODOLOGY

The audit was conducted in accordance with Government Auditing Standards
prescribed by the Comptroller General of the United States and included such tests
as we considered necessary to provide reasonable assurance of detecting abuse or
illegal acts. The following methodology was used in conducting this review.

To determine whether FAA has identified future hiring requirements for controllers,
we interviewed FAA personnel at both Headquarters and regional offices. We
obtained and evaluated for FYs 2004 and 2005 projections of estimated attrition at
each of the facilities we visited. We reviewed a 1997 study conducted by The
National Academy of Sciences that examined FAA’s staffing standards. We also
evaluated the methodology used by Headquarters in projecting attrition for the
controller workforce.

To determine if FAA’s existing sources for filling projected vacancies will be
sufficient to meet projected requirements, we interviewed FAA personnel at
Headquarters to identify the sources of new controllers and the number of applicants
on current rosters. We also interviewed representatives from MARC and CTI
schools to ascertain if schools can increase the size of their classes. We obtained
background information on the AT-SAT and interviewed FAA personnel to identify
plans for its implementation.

To determine if FAA’s OJT process for controllers is effective at developing CPCs
in a timely and cost-effective manner, we interviewed FAA personnel at FAA
Headquarters, regional headquarters, and facilities. We obtained training data from
facilities showing the number of training failures, number of new controllers
certified in FYs 2002 and 2003, average time to certify by hiring source, number of
developmentals, average training hours by hiring source, number of certified air
traffic controllers, and number of new hires in FYs 2002 and 2003.

To determine if FAA’s management of and controls over the ATIS contract were
effective, we interviewed FAA personnel responsible for administering the contract
and facility representatives. We also interviewed contractor personnel at facilities to
ascertain how training assignments are made and how contractor personnel are
utilized. We examined personnel files for contractors to determine if they were
qualified. We also reviewed monthly activity reports and available documentation
used to support hours billed.




Exhibit A. Audit Methodology
                                                                                23




EXHIBIT B. ACTIVITIES VISITED OR CONTACTED
Eastern Region:
     •   Eastern Regional Headquarters
     •   New York Center
     •   Washington Center
     •   LaGuardia Tower
     •   New York TRACON
     •   Potomac TRACON

Great Lakes Region:
     •   Great Lakes Regional Headquarters
     •   Minneapolis Center
     •   Chicago Center
     •   Cleveland Center
     •   Minneapolis/St. Paul International Airport Tower / TRACON
     •   Chicago TRACON

Southern Region:
     •   Southern Regional Headquarters
     •   Atlanta Center
     •   Jacksonville Center
     •   Atlanta TRACON

Western Pacific Region:
     •   Western Pacific Regional Headquarters
     •   Los Angeles Center
     •   Oakland Center
     •   Los Angeles Tower
     •   Southern California TRACON

Other FAA Facilities:
     • Mike Monroney Aeronautical Center—FAA Academy
     • Air Traffic Control System Command Center

Schools:
     • Community College of Beaver County, Pennsylvania
     • Embry Riddle Aeronautical University
     • Minneapolis Community & Technical College Air Traffic Control Training
        Program
     • University of North Dakota

Exhibit B. Activities Visited or Contacted
                                                           24




EXHIBIT C. MAJOR CONTRIBUTORS TO THIS
REPORT
THE FOLLOWING INDIVIDUALS CONTRIBUTED TO THIS REPORT.



  Name                                  Title

  Daniel Raville                        Program Director

  Susan Bader                           Project Manager

  Robert Romich                         Senior Analyst

  Angela McCallister                    Senior Auditor

  Erik Phillips                         Analyst

  Chris Frank                           Auditor

  Adam Schentzel                        Auditor

  Kathleen Huycke                       Editor




Exhibit C. Major Contributors to This Report
                                                                     25




EXHIBIT D. AIR TRAFFIC INSTRUCTIONAL
SERVICES CONTRACTOR SITES

Abilene Tower                         Northern California TRACON
Addison Tower                         Potomac TRACON
Albuquerque Tower                     Southern California TRACON
Dallas Fort Worth Tower               Albuquerque Center
Denver Tower                          Anchorage Center
Eugene Tower                          Atlanta Center
Hillsboro Tower                       Boston Center
Hobby Tower                           Chicago Center
Hooks Airport Tower                   Cleveland Center
Honolulu Tower                        Denver Center
Honolulu Control Facility             Fort Worth Center
Houston Tower                         Houston Center
Jacksonville Tower                    Indianapolis Center
Los Angeles Tower                     Jacksonville Center
Love Field Tower                      Kansas City Center
Memphis Tower                         Los Angeles Center
Portland Tower/TRACON                 Memphis Center
Salt Lake City Tower                  Miami Center
San Juan Tower                        Minneapolis Center
Savannah Tower                        New York Center
Seattle Tower (SEA-TAC)               Oakland Center
Waco Tower                            Salt Lake City Center
Atlanta TRACON                        Seattle Center
Chicago TRACON                        Washington Center
Denver TRACON                         San Juan Central Radar Approach
Houston TRACON                        Air Traffic Control System Command Center
New York TRACON




Exhibit D. Air Traffic Instructional Services Contractor Sites
                                26




APPENDIX. MANAGEMENT COMMENTS




Appendix. Management Comments
                                27




Appendix. Management Comments
                                28




Appendix. Management Comments
